                                   Office of Inspector General
                                                       February 2013

                                              -party to front the down payment funds      Office of Inspector General
 Business Loans                               needed by the buyer at closing and di-
                                              rected the use of loan proceeds to re-          Peggy E. Gustafson
                                              pay that third party after the closing.          Inspector General
Ohio Man Found Guilty on                      The parties involved inflated the con-
                                              tract sales price of the business and
Conspiracy and Fraud Charges                                                               If you are aware of suspected waste,
                                              used a bogus second mortgage from
                                                                                           fraud, or abuse in any SBA program,
                                              the seller in order to obtain 100% fi-
On February 7, 2013, an Ohio man was                                                              please report it online at
                                              nancing for the buyer. The fraud
found guilty of conspiracy, bank fraud,                                                  http://www.sba.gov/office-of-inspector-
                                              scheme and false representations in-
and two counts of wire fraud following a
                                              duced the lender to approve and dis-                     general/2662
jury trial. The man was indicted on De-
                                              burse the loan to the unqualified buyer.
cember 13, 2011, in connection with
                                              The buyer made one interest-only pay-         Or call the OIG Hotline toll-free, at
fraudulent activities involving a
                                              ment and the loan defaulted immedi-
$1,715,600 SBA-guaranteed loan. The                                                                   (800) 767-0385
                                              ately. After liquidation of assets, the
indictment charged that the man and a co
                                              total loss to the bank and the SBA ex-
-conspirator provided false and fictitious                                               We welcome your comments concern-
                                              ceeds $1.232 million. The SBA OIG Ear-
loan application documents, invoices, and                                                 ing this update or other OIG publica-
                                              ly Fraud Detection Working Group
additional supporting documents to a
                                              provided this referral. This is a joint    tions. To obtain copies of these docu-
bank and the SBA in order to secure the
                                              investigation with the U.S. Postal In-           ments please contact us at:
SBA-guaranteed loan for the man and his
recycling company. The proceeds of the        spection Service.
loan were to be used to open and oper-                                                                  SBA OIG
ate a tire recycling plant in Troy, Ohio.                                                         409 Third Street SW,
This is a joint investigation with the Fed-                                                            7th Floor
eral Bureau of Investigation (FBI).           Disaster Loans                                     Washington, DC 20416
                                                                                                  E-mail: oig@sba.gov
Chicago Area Loan Agent Charged                                                                Telephone: (202) 205-6586
with Bank Fraud                                                                                   FAX (202) 205-7382
                                              Texas Woman Pleads Guilty to
On February 21, 2013, a Chicago-area          Theft of Government Funds                   Many OIG reports can be found on the
loan agent was charged by criminal infor-                                                            OIG’s website
mation with two counts of bank fraud.         On February 20, 2013, a Texas woman        http://www.sba.gov/office-of-inspector-
On February 25, 2013, the man plead           entered a guilty plea to a one-count
guilty to both charges. The loan agent                                                                  general
                                              information filed on the same date
was charged in connection with multiple       charging her with theft of government
residential and commercial loan fraud         funds. The investigation disclosed that
schemes including one involving a $1.760      the woman altered repair invoices and
million SBA loan the purchase of a gaso-      filed them with the SBA in support of a
line station and convenience store locat-     $97,385 disaster loan she received for
ed in Chicago, Illinois. The investigation    her Violet, Louisiana, residence, which
revealed that loan agent recruited an         was damaged by Hurricane Katrina.
unqualified buyer for the gas station and     This is a joint investigation with the
prepared counterfeit investment account       Department of Homeland Security OIG.
statements, cashier’s checks, and a bogus
management résumé to make the buyer
appear qualified to the lender and the
SBA. The loan agent also recruited a third
